<html>
<title> - SEPARATION OF NUCLEAR FAMILIES UNDER U.S. IMMIGRATION LAW</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                 SEPARATION OF NUCLEAR FAMILIES UNDER 
                          U.S. IMMIGRATION LAW

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    IMMIGRATION AND BORDER SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 14, 2013

                               __________

                            Serial No. 113-9

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
79-881                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6b0c1b042b081e181f030e071b4508040645">[email&#160;protected]</a>  


                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
HOWARD COBLE, North Carolina         ROBERT C. ``BOBBY'' SCOTT, 
LAMAR SMITH, Texas                       Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
SPENCER BACHUS, Alabama              ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO R. PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     JUDY CHU, California
TED POE, Texas                       TED DEUTCH, Florida
JASON CHAFFETZ, Utah                 LUIS V. GUTIERREZ, Illinois
TOM MARINO, Pennsylvania             KAREN BASS, California
TREY GOWDY, South Carolina           CEDRIC RICHMOND, Louisiana
MARK AMODEI, Nevada                  SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 JOE GARCIA, Florida
BLAKE FARENTHOLD, Texas              HAKEEM JEFFRIES, New York
GEORGE HOLDING, North Carolina
DOUG COLLINS, Georgia
RON DeSANTIS, Florida
KEITH ROTHFUS, Pennsylvania

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
                                 ------                                

            Subcommittee on Immigration and Border Security

                  TREY GOWDY, South Carolina, Chairman

                     TED POE, Texas, Vice-Chairman

LAMAR SMITH, Texas                   ZOE LOFGREN, California
STEVE KING, Iowa                     SHEILA JACKSON LEE, Texas
JIM JORDAN, Ohio                     LUIS V. GUTIERREZ, Illinois
MARK AMODEI, Nevada                  JOE GARCIA, Florida
RAUL LABRADOR, Idaho                 PEDRO R. PIERLUISI, Puerto Rico
GEORGE HOLDING, North Carolina

                     George Fishman, Chief Counsel

                   David Shahoulian, Minority Counsel


                            C O N T E N T S

                              ----------                              

                             MARCH 14, 2013

                                                                   Page

                           OPENING STATEMENTS

The Honorable Trey Gowdy, a Representative in Congress from the 
  State of South Carolina, and Chairman, Subcommittee on 
  Immigration and Border Security................................     1
The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Ranking Member, Subcommittee on 
  Immigration and Border Security................................     3

                               WITNESSES

Randall Emery, President, American Families United
  Oral Testimony.................................................     5
  Prepared Statement.............................................     7
Mathi Mugilan Paguth Arivalan, Lawful Permanent Resident
  Oral Testimony.................................................    21
  Prepared Statement.............................................    22
Demetrios G. Papademetriou, Ph.D., President, Migration Policy 
  Institute
  Oral Testimony.................................................    23
  Prepared Statement.............................................    25
Clarissa Martinez-De-Castro, Director, Immigration and Civic 
  Engagement, National Council of La Raza
  Oral Testimony.................................................    29
  Prepared Statement.............................................    31

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Ranking Member, 
  Subcommittee on Immigration and Border Security................    47
Prepared Statement of the Honorable Bob Goodlatte, a 
  Representative in Congress from the State of Virginia, and 
  Chairman, Committee on the Judiciary...........................   114

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Trey Gowdy, a Representative 
  in Congress from the State of South Carolina, and Chairman, 
  Subcommittee on Immigration and Border Security................   117
Prepared Statement of the United Auto Workers....................   119
Prepared Statement of MinKwon Center for Community Action........   121


       SEPARATION OF NUCLEAR FAMILIES UNDER U.S. IMMIGRATION LAW

                              ----------                              


                        THURSDAY, MARCH 14, 2013

                        House of Representatives

            Subcommittee on Immigration and Border Security

                       Committee on the Judiciary

                            Washington, DC.

    The Subcommittee met, pursuant to call, at 1:50 p.m., in 
room 2237, Rayburn Office Building, the Honorable Trey Gowdy 
(Chairman of the Subcommittee) presiding.
    Present: Representatives Gowdy, Goodlatte, King, Amodei, 
Labrador, Holding, Lofgren, Jackson Lee, Gutierrez, and Garcia.
    Staff present: (Majority) Andrea Loving, Counsel; Allison 
Halataei, Parliamentarian & General Counsel; Graham Owens, 
Clerk; and (Minority) Tom Jawetz, Counsel.
    Mr. Gowdy. The Subcommittee on Immigration and Border 
Security will come to order. This is a hearing on the 
separation of nuclear families under U.S. immigration law. 
Unfortunately because of a meeting that the minority Members 
will be having with the President, we will stand in recess 
until 3:45.
    [Recess.]
    Mr. Gowdy. On behalf of all of us, thank you again for your 
indulgence. We will begin.
    This is the Subcommittee on Immigration and Border 
Security. We will now proceed with the hearing on the 
separation of nuclear families under U.S. immigration law. And 
again, on behalf of all of us, thank you for being here.
    I will now recognize myself for an opening statement.
    Family is the fundamental unit of society. Family is where 
we go to multiply joy and mitigate grief and share all of the 
emotions in between.
    A brief moment of personal indulgence. My mother-in-law 
fell on Monday and broke her hip, and even though there are 
wonderful nurses and doctors at the hospital, it will be family 
that stays with her around the clock. It will be family that 
will take my daughter to school. It will be family that will do 
the grocery shopping for her, and clean the house, and cut the 
grass.
    We all claim to support pro-family agendas, and we analyze 
tax policy, and health care policy, and virtually all of the 
forms of policy against the backdrop of whether or not it 
incents or disincentivizes family. So it is appropriate that we 
also analyze our immigration policy, whether it is friendly to 
this thing we call family, the fundamental unit of our culture 
and society.
    We have heard the statistics about U.S. green card backlogs 
and the time it takes for individuals trying to come to the 
U.S. legally. In fact, under the current process, if you have 
applied for a green card on the basis of being a brother or 
sister of an adult U.S. citizen, the wait could be nearly 25 
years.
    Members of the U.S. Commission on Immigration Reform now 
believe there to be a wait for spouses and unmarried minor 
children, but they do not necessarily share the same view about 
other family members. In its 1997 report, the Commission stated 
the natural interest in the entry of nuclear family members 
outweighs that of more extended family members.
    The Commission also addressed the wait time for the spouse 
and unmarried minor children of lawful permanent residents, 
stating that no spouse or minor child should have to wait more 
than 1 year to be reunited with a U.S. petitioner. But the 
current green card wait time for the spouse and unmarried minor 
children of an LPR is actually around two and a half years, and 
there around 220,000 people waiting. So why is there a wait?
    When Congress created the kind of green card system in the 
Immigration Act of 1965, limits were placed on the number of 
green cards available for certain classes of people each year. 
For instance, each year's family-sponsored green card limit for 
spouses and children of lawful permanent residents in the U.S. 
is 114,200, plus any unused green cards from the category 
allotted for unmarried adult children of U.S. citizens.
    This preference category known as family-based second 
preference is further divided into 2A preference for spouses 
and unmarried children of LPRs and 2B preferences for unmarried 
adult children of LPRs. So if the number of green cards 
available in any given year for the family-based 2A preference 
category is less than the number of people who apply for a 
green card in that category, a backlog is created.
    At this point, the top five countries with the highest 
family-based 2A preference waiting list totals are: Mexico, the 
Dominican Republic, Cuba, Haiti, and the Philippines, with the 
rest of the countries making up the remaining 32 percent.
    Another reason for the wait is the conscious congressional 
decision not to allow immediate green cards for the family-
based 2A preference category in order to help prevent marriage 
fraud. Since these marriages occur after the LPR has become an 
LPR, there is a real threat that if green cards were 
immediately available, marriage fraud would become more 
prevalent. Ideas differ as to how to reduce the green card wait 
time for the family-based 2A preference, and I am sure we will 
hear some of those differing views from our witnesses today.
    Some individuals believe spouses and unmarried children of 
LPRs should be considered the same as immediate relatives of 
U.S. citizens and, thus, receive a green card immediately. Some 
believe the current situation is fine and that a few years' 
wait time is a fair price for the benefit of a U.S. green card, 
which then leads to citizenship. And still yet, others believe 
that the correct answer lies somewhere in between. So I look 
forward to today's witness testimony to learn more about this 
issue and possible remedies.
    And at this point, I would recognize the gentlelady from 
California, the Ranking Member of the Subcommittee, Ms. 
Lofgren.
    Ms. Lofgren. Thank you very much, Mr. Chairman. I am very 
sorry to hear about your mother-in-law, but I know that you 
will all take good care of her.
    I also would like to note that this is the fifth hearing 
this Congress that we have had focusing on our broken 
immigration system, and I think each hearing has been 
productive and provided useful information. And today is a 
critical hearing to focus in on the important issue of the 
separation of families under U.S. immigration law.
    As you know, family reunification has been really the 
bedrock of the American immigration system, at least since 1965 
when the law as we currently know it was framed, although there 
have been some changes since. I think the focus on the family 
was not an accident on the part of Congress. As you have 
noticed, it is families that support us. It is family that are 
most dear to us. Really it is families that make the Nation 
work more than any other abstraction.
    As you have mentioned, under the immigration laws, the 
parents, spouses, and minor children are U.S. citizens. They 
are immediate relatives under the law and can join their family 
here. But the system further limits immigration to 7 percent 
per country, and I would note that that also leads to very odd 
results in some ways because you have the same number of visas 
allocated to Iceland with a population of 350,000 as you do to 
the population of India, with 1.2 billion. And so there are 
anomalies that are caused by that.
    Now, we have seen some improvements in the amount of time 
that spouses and minor children are separated. But I still 
think what does America gain if a husband and wife are 
separated, or if children are separated from a parent? I do not 
think that is what the Congress intended when we crafted these 
laws originally, and I do not think those separations really 
serve any valid purpose for the country.
    During a prior hearing, one of the Members of the full 
Judiciary Committee mentioned an adult son or daughter as chain 
migration. I want to note again I do not consider my son or 
daughter remote from me. I think that the sons and daughters of 
moms and dads are about as nuclear family as you can get. And 
it is not you, but I just wanted to restate my concern in that 
way.
    I think also our problems have been aggravated by changes 
that we made in the law in 1996, and I will just give you one 
example. In the '96 Act, we established something called the 3 
in 10-year bar. I said at the time that it would just create 
more unlawful immigration, and I would like to say how 
unsatisfactory are the words ``I told you so.''
    You can imagine that if you are out of status for 6 months, 
that you have to leave the United States, leave your American 
citizen spouse for as much as 3 years. If you are out of status 
for a year, you have to leave for 10 years. Now, if you leave 
for 10 years when your child is 5, by the time you get back, 
your child will be grown. And so, what has happened is that 
people have declined to ruin their families in that way.
    The Migration Policy Institute has done some studies on 
that, and it is a significant proportion of the undocumented 
population, that were it not for the mistakes we made in the 
'96 Act, they would be lawfully present here. They would have 
been able to qualify under the Act.
    So I think this is a very important hearing. I look forward 
to working with you, Mr. Chairman, in making our system work 
better and serve America better than it does.
    And with that, I yield back.
    Mr. Gowdy. I thank the gentlelady from California.
    Now, we will introduce the witnesses. I will introduce you 
en banc, and then recognize you individually. Many of you have 
testified before. The light system means what it traditionally 
means in life: green, go, yellow, see if you can wrap up within 
the next 30, 45 seconds, and then red, go ahead and wrap up as 
quickly as you can.
    I will start by introducing Mr. Randell Emery. Mr. Emery is 
the president of American Families United. He co-founded the 
organization in 2006 and first took an interest in legislative 
immigration issues when his application for his wife's green 
card was delayed by more than 3 years.
    Mr. Emery is employed by a global professional services 
firm and holds a bachelor of science in management information 
systems from the Pennsylvania State University.
    Mr. Mathi Paguth Arivalan--and if I mispronounced that, and 
I am 100 percent certain I did, I apologize--is a legal 
permanent resident currently working as a software consultant 
for Newsmax. He was born in India and currently resides in 
Delray Beach, Florida.
    He is a graduate of the University of Madras and came to 
the United States legally in 2005 to work on his inter-company 
transfer visa, which is an L-1 visa, and received his permanent 
resident status in 2009. He was married a month ago to a 
Malaysian citizen, and who is currently awaiting her green card 
to join him in the United States.
    Mr. Demetrios Papademetriou--I may have added a syllable in 
there, and for that I apologize. Well, there is a first for 
everything--is a native of Greece. He is president and co-
founder of the Migration Policy Institute, a Washington-based 
think tank dedicated exclusively to the study of international 
migration. He is also president of the Migration Policy 
Institute, Europe.
    He received a Ph.D. in political science, international 
relations, and comparative public policy for Europe from the 
University of Maryland in 1976.
    And last, but certainly not least, is Ms. Clarissa 
Martinez-De-Castro. She is the director of Civic Engagement and 
Immigration at the National Council of La Raza. Ms. Martinez 
oversees the organization's work to advance NCCR immigration 
policies, as well as efforts to expand Latino policy advocacy 
in electoral participation.
    She is a naturalized United States citizen, a graduate of 
Occidental College and Harvard's Kennedy School of Government.
    Welcome to all of you.
    Mr. Emery, we will recognize you first and then go from 
your right to left, my left to right, for your opening 
statements.
    Mr. Emery.

            TESTIMONY OF RANDALL EMERY, PRESIDENT, 
                    AMERICAN FAMILIES UNITED

    Mr. Emery. Thank you, Chairman Gowdy, Ranking Member 
Lofgren, and all the members of the panel. My name is Randall 
Emery. I am president and co-founder of American Families 
United. We are the premier grass roots organization advocating 
for nuclear families and immigration reform.
    AmericanFamiliesUnited.org was founded by U.S. citizens in 
2006 because our rights as U.S. citizens, as husbands and 
wives, mothers and fathers, are not respected by U.S. 
immigration law. We created American Families United because we 
could not find another voice working on our very specific 
issues. As U.S. citizens, we immediately make common cause with 
lawful permanent residents who face indefensible delays in 
uniting with their spouses and kids.
    It is often said that our immigration laws are broken, but 
not why. It is simple: our laws contradict our values.
    Today's hearing is on the separation of nuclear families. 
Let me give a brief history of the F2A backlog that spouses and 
minor children of legal permanent residents.
    We hear all the time about illegal immigration, but it has 
been nearly a quarter century since Congress last increased 
legal immigration. In 1990, if someone got a green card today 
and got married tomorrow, the minimum wait was 1 year. Congress 
thought that was too long. The House version of the 1990 act 
would have made nuclear families of legal permanent residents a 
numerically unlimited category.
    Speaking on behalf of American Families United, we are 
proud of Governor Romney for proposing to return to this idea 
in his 2012 campaign. We are very encouraged of news reports 
that Senator Rubio has also proposed making the F2A category 
into immediate relatives under the law.
    In 1995, the Jordan Commission asked the State Department 
for a formal count. How many people are we talking about? The 
official estimate was 1.1 million with more than 800,000 in the 
U.S. and another 300,000 waiting abroad facing a minimum wait 
of 3 years. The Jordan Commission found that this contradicted 
our national interests in warmly welcoming new Americans. But 
others said the backlog would go away on its own. It has not.
    From 1990 to about 2006, the length of the time legal 
immigrants who marry, as Mat here did, increased from a year to 
nearly 8 years. How could the total number of people waiting 
have been declining when the time they must wait increased? But 
after about 2006, something weird happened with priority dates. 
They moved rapidly forward. A delay that had been 7 or 8 years 
is now 2 years and 4 months. It is still far too long, yet it 
is not the whole story.
    A shorter waiting time does not mean fewer people are 
waiting. It means something much worse. People we should have 
welcomed were pushed into the shadows. The State Department's 
annual waiting list says there are now 220,000 husbands and 
wives, parents and kids in this line, but that does not include 
hundreds of thousands of applications for nuclear family 
immigration held at USCIS.
    We want the Committee to see the iceberg below the surface. 
These are some of the stories shared with us. An engineer from 
Russia, whose wife was in a car accident. He took ``for better 
or for worse, in sickness and in health'' seriously, and 
literally tried to commute between Oklahoma and the hospital in 
Kazakhstan. She was out of the United States so long that his 
marriage vows cost him his green card.
    An elevator mechanic from Jamaica, he married a foreign 
student from Trinidad. They had a baby. She stopped going to 
school. By the time they found out the law required her to wait 
outside the country, she was already facing a 3-year ban. Then 
she learned her mother was dying, so this wife of a legal 
immigrant and mother of a U.S. citizen could accept exile from 
her husband, the father of their child, or she could never see 
her mother again, who would never meet her granddaughter.
    And take my own story. I am a U.S. citizen. My wife is here 
legally. We got married. We were interviewed for a green card 
and told to come back in a few months while they did the 
background check. We did what we were told, but they had not 
finished the background check. So some people would want to 
arrest, deport, and exile her for 10 years because of their 
bureaucratic delay.
    Let us be clear. One of the best things Congress could do 
about illegal immigrants is to stop making more of them.
    American Families United has met with dozens of U.S. 
representatives and senators in their offices. I want to 
particularly thank Congresswoman Lofgren and especially Mr. 
Gutierrez, as well as Mr. Amodei and Judge Poe, for meeting 
with us on Valentine's Day.
    We support comprehensively fixing our immigration laws. 
Legalization means waivers of inadmissibility for millions of 
people, but new laws must reflect old values: marriage, family. 
We urge this Committee to recognize that nuclear families of 
legal permanent residents are immediate relatives. We also urge 
due process waiver reform because the families of U.S. citizens 
should be treated at least as generously as anybody else in 
comprehensive immigration legislation.
    Thank you.
    [The prepared statement of Mr. Emery follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
    Mr. Gowdy. Thank you, sir.
    Mr. Arivalan.

          TESTIMONY OF MATHI MUGILAN PAGUTH ARIVALAN, 
                   LAWFUL PERMANENT RESIDENT

    Mr. Arivalan. Thank you, Chairman Gowdy, Ranking Member 
Lofgren, and all the Members of this distinguished Committee. 
My name is Mathi Magulin Paguth Arivalan. I am a legal 
permanent resident of the United States. I hope to become a 
United States citizen one day.
    I was born in India. I am a Tamil. That means I am a member 
of one of the oldest continuous nationalities on earth, as 
venerable as the ancient Hebrews, older than the Romans, nearly 
as old as the Egyptians, who built the pyramids. Tamils are 
scattered across most of South Asia: India, Malaysia, and, most 
painfully, Sri Lanka. It is exciting to me as a legal immigrant 
of this country to think that I am bringing one of the world's 
oldest people to one of the world's youngest nations.
    I am also married. I hope you do not mind if I exercise one 
of the prerogatives enshrined in the Bill of Right. I want to 
petition the government for a redress of grievances.
    I came to the United States on an L visa in 2005 as a 
software consultant. I got my green card in 2009. These days I 
work for Newsmax, which I expect most of you are familiar with. 
I am well-known in the Tamil community, which is worldwide. It 
was through my work in human rights, particularly after the 
genocide against Tamils in Sri Lanka, that I met Bhavaneswari. 
She is also a Tamil, born and raised in Malaysia. We fell in 
love. We got married on February 14th. Of course you all 
recognize that is a marvelous bit of multiculturalism. I did 
not grow up celebrating Valentine's Day, but I think it will 
also be our wedding anniversary.
    What I have to tell this Committee that I was shocked to 
discover when I was about to file a petition to bring 
Bhavaneswari to America, my new country, as my new wife, that 
the minimum wait in this category is more than 2 years. I 
understand that this delay has been as long as 8 years for some 
people.
    Let me explain why that shocked me. After all, I have been 
working legally in this country for about 8 years. I know many 
professionals who work here on various visas--L1, H1B. They can 
bring their wives to the United States almost immediately. But 
I have made a commitment to the United States by becoming a 
legal permanent resident. As a Tamil, I cannot say that that 
there is any other nation on earth that is truly my home, but 
is that not America's story that this is a land where those who 
are not at home anywhere can make one?
    So I was shocked to find that because I made a commitment 
to America, my wife must wait in another country for years. If 
I was just a temporary worker, my wife would not have been 
12,000 miles away.
    I did what any red-blooded American would do. I went on the 
Web and used Google. I found AmericanFamiliesUnited.org and 
realized that my problem was not unique. It was, in fact, a 
feature of U.S. immigration law. I cannot believe that was the 
intent of Congress. This organization was formed to fix it, so 
I joined.
    All I know is what I see in the media, but we are very 
hopeful that Congress will comprehensively reform immigration 
laws to reflect the very values that attracted me to this 
country. Thank you.
    [The prepared statement of Mr. Arivalan follows:]

         Prepared Statement of Mathi Mugilan Paguth Arivalan, 
                       Lawful Permanent Resident

    Thank you Chairman Gowdy, ranking Member Lofgren, and all the 
members of this distinguished Committee. My name is Mathi Mugilan 
Paguth Arivalan. I am a legal permanent resident of the United States. 
I hope to become a US citizen one day.
    I was born in India. I am a Tamil. That means I am a member of one 
of the oldest continuous nationalities on earth--as venerable as the 
ancient Hebrews, older than the Romans, nearly as old as the Egyptians 
who built the Pyramids. Tamils are scattered across much of South 
Asia--India, Malaysia, and, most painfully, Sri Lanka.
    It is exciting to me, as a legal immigrant to this country, to 
think that I am bringing one of the world's oldest peoples to one of 
the world's youngest nations.
    I am also married. I hope you don't mind if I exercise one of the 
prerogatives enshrined in the Bill of Rights, and petition the 
government for a redress of grievances.
    I came to the United States on an L visa in 2005, as a software 
consultant. I got my green card in 2009. These days, I work for 
Newsmax, which I expect most of you are familiar with.
    I am well-known in the Tamil community, which is worldwide. It was 
through my work in human rights, particularly after the genocide 
against Tamils in Sri Lanka, that I met Bhavaneswari. She is also a 
Tamil, born and raised in Malaysia.
    We fell in love--and we got married on February 14th. Of course you 
all recognize that is a marvelous bit of multiculturalism. I did not 
grow up celebrating Valentine's Day, but I think I like that it will 
also be our wedding anniversary.
    But I have to tell this Committee that I was shocked to discover, 
when I filed a petition to bring Bhavaneswari to America, my new 
country, as my new wife, that the minimum wait in this category is more 
than two years. I understand that this delay has been as long as 8 
years for some people.
    Let me explain why that shocked me. After all, I have been working 
legally in the United States for 8 years. I know many professionals who 
work here on various visas: L-1, H-1B. They can bring their wives to 
the United States almost immediately.
    But I have made a commitment to the United States by becoming a 
legal permanent resident. As a Tamil, I cannot say that there is any 
nation on earth that is truly my home--and isn't that America's story, 
that this is the land where those who are not at home anywhere, can 
make one?
    So I was shocked to find that because I had made a commitment to 
America, my wife must wait in another country for years. If I was just 
a temporary worker, my wife would not be 12,000 miles away.
    I did what any redblooded American would do--I went on the Web, and 
used Google. I found AmericanFamiliesUnited.org--and realized that my 
problem was not unique. It is in fact a feature of US immigration law. 
I cannot believe that was the intent of Congress. This organization was 
founded to fix it. I joined.
    All I know is what I see in the media, but we are very hopeful that 
Congress will comprehensively reform immigration laws to reflect the 
values that attracted me to this country.
                               __________

    Mr. Gowdy. Thank you, sir.
    Mr. Papademetriou. I will get it in another 6 or 7 weeks.

  TESTIMONY OF DEMETRIOS G. PAPADEMETRIOU, Ph.D., PRESIDENT, 
                   MIGRATION POLICY INSTITUTE

    Mr. Papademetriou. I have to keep coming back. That is the 
only way to do it.
    Mr. Chairman, Ms. Lofgren, Mr. Gutierrez, Mr. Labrador, it 
is a pleasure to testify before you on this particular issue. I 
think that following the statements of the Chairman and the 
Ranking Member, it is clear that we all agree that how a 
country approached immigration and how it treats its immigrants 
is a powerful statement to the world about the values and the 
principles on which it stands.
    And indeed when it comes to family, our commitment to 
families is very deep. From the total number of legal permanent 
residents, people who come to the United States, about two-
thirds of all visas go to families of U.S. citizens. And if you 
add all of the family members that accompany to join others 
throughout the immigration system, the total proportion goes up 
to 80 percent. So 80 percent of the total number of the 1.1 
roughly visas that we issue each year essentially goes to 
family members.
    And you have all suggested and seem to agree that indeed 
that is extremely important. And you have also talked about the 
second preference, the backlogs. The first of the 2 second 
preference subcategories, 2A, gets about 77 percent of the 
about 115,000 visas that are available in the category. The 2 
big categories, which is the unmarried adult children 2A is 
spouses and unmarried minor children. The 2 big categories gets 
the remainder, about 23 percent.
    So it is not, you know, unusual that the delays, the 
backlogs that have been created are distributed unequally--a 
little over 200,000 for the 2A and about 500,000 for the 2B. 
And the average waiting times is a little over between 2 and a 
two and a half years for 2A, about 8 years for 2B. And for the 
Filipinos and the Mexicans, on the 2B the Filipinos would be 11 
years and Mexicans 20 years. We can all do that math.
    These numbers, of course, come from the National Visa 
Center of the Department of State, and these are the people 
waiting abroad, and they have filed a petition. They qualify 
under the law, and they are waiting in line.
    There is another number, which is not known, some people 
suggest a very large number--I make no judgments in this 
because we have not studied at the Migration Policy Institute--
where people apply for adjustment of status from within the 
United States under Section 245(i) of the INA.
    Last year, 12,000 people actually joined, you know, the 
ranks of green card holders for this particular route. It is a 
significant number, but much smaller than the number for all of 
the other visas.
    Now, I know that we all believe deeply within us that there 
is a great deal of exceptionalism within our country, and 
indeed there is. But I do want us to all know that among 
advanced industrial democracies, all the European countries--
Canada, Australia, and what have you, New Zealand--we are the 
only ones who have either numerical limits or waiting lists for 
spouses and minor children of green card holders, the only 
ones. Even if you were to take the example of Germany, which is 
not exactly, you know, at least until very recently, a place 
that is very friendly to immigration, spouses and minor 
children can join their loved ones, their spouse, or their 
parent without any delays, except administrative delays. And 
these tend to be very, very short, from 28 days to about 3 
months, with the exception of Canada where the delays can go as 
far as 30 months.
    So what I have tried to suggest in this brief review is 
that we need to do something about this particular change; 
otherwise, we are going to not only keep families separate, but 
also we are going to contribute to this population that is in 
the United States illegally.
    I have 2 suggestions for you to consider. The first one is 
to create a second category within the immediate relatives 
category. You can call it IR2. And the second one is to revisit 
the V visa, which is the temporary visa. And we can do that 
relatively easily. Congress can do and undo whatever it wishes, 
and we can take care of the problem.
    Thank you very much.
    [The prepared statement of Mr. Papademetriou follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
    Mr. Gowdy. Thank you, sir.
    Ms. Martinez.

TESTIMONY OF CLARISSA MARTINEZ-DE-CASTRO, DIRECTOR, IMMIGRATION 
       AND CIVIC ENGAGEMENT, NATIONAL COUNCIL OF LA RAZA

    Ms. Martinez-De-Castro. Thank you, Chairman Gowdy and 
Ranking Member Lofgren, Members of the Committee, for the 
opportunity to be with you today.
    Given that my fellow witnesses have done a great job, I 
think I am going to try to concentrate on adding some context 
of how why this issue is so important and how we are looking at 
it.
    First, as a way of background, let me say NCLR is the 
largest national Hispanic civil rights and advocacy 
organization in the country with a network of nearly 300 
community-based organizations who serve millions of Americans 
annually. These are groups who are in the trenches and seen the 
results of what is happening with inaction in the immigration 
system.
    Without a doubt, immigration is a galvanizing issue for the 
Nation's Hispanic community, 75 percent of whom are United 
States citizens. The toxic rhetoric in the debate has affected 
us all regardless of immigration status, and that is why I 
believe Latino voters responded the way they did in the last 
election in a way that I believe also has created an 
opportunity to try to get to a solution.
    Our community is very engaged in watching this debate very 
closely, and it matters not just to the voters today, but the 
average 900,000 Latino citizens who are going to be turning 18 
every year between now and 2028.
    We believe that immigration to the United States should be 
orderly and legal. And as part of the opportunity that Congress 
has right now to get immigration reform right, we believe that 
we should have a system that, number one, restores the rule of 
law by creating a path to legality and citizenship while also 
combining smart enforcement meshers that respect rights and 
increase security.
    Number two, a system that preserves the rule of law through 
functioning legal immigration channels that uphold the unity of 
all families and respond to the needs of employers and the 
American workforce. And number three, and not least, is a 
system that strengthens the fabric of the country by promoting 
immigrant integration. Family-based immigration is something 
that is important in all of these 3 categories.
    We understand that the various components of the 
immigration system are designed to work in tandem. Therefore, 
once we restore the rule of law, our ability to preserve it 
will rest on whether or not we have a functioning legal 
immigration system that does not create incentives to go around 
it. The cornerstones of that system have been family and 
employment-based migration. And while some see these as 
competing categories, the reality is that they are highly 
complementary and intertwined in both advanced national goals 
of strengthening family values and achieving global economic 
competitiveness.
    Keeping families strong is a fundamental value of American 
life. It also promotes the economic stability of immigrants in 
their integration into our country, which is a goal we have as 
a Nation. In every wave of immigrants that have to America, the 
family unit has been critical both to the survival of 
immigrants in a strange land also to their success in adapting 
and contributing to their newly-adopted country.
    We would be undermining ourselves if we walked away from 
family unity as a guiding principle for our immigration policy. 
And close relatives are able to make vital contributions to the 
U.S. economy as workers and as entrepreneurs, and have helped 
revitalize many cities and revitalize and re-energize U.S. 
small business culture. Put plainly, family-based immigration 
is an economic and social imperative. And to fully reap its 
rewards, we must address the problems causing the unnecessary 
separation of families.
    Problem number 1, due to a lack of available visas, there 
is about 4.3 million relatives of U.S. citizens waiting outside 
to reunite. LGBT families, problem number 2, are completely 
excluded. Problem number 3, hundreds of thousands of U.S. 
citizens and lawful permanent residents have been separated 
from family members due to the increase in deportations.
    We can solve these problems, and we definitely need to look 
at broadening the lanes. Modern families are complicated and 
diverse, and we must have an immigration system for the 21st 
century that reflects those complexities and includes a mix of 
permanent and temporary family and business.
    I urge the Subcommittee to think in terms of both/and as 
opposed either/or, and in so doing, to remember the principles 
that should guide us: to restore the rule of law, to preserve 
it, and to advance immigrant immigration. And we need both 
family and employment-based immigration to achieve that. It is 
a challenge, but I think it is something that is doable, and 
definitely this body has the power to do something about it.
    Thank you very much.
    [The prepared statement of Ms. Martinez-De-Castro follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________

    Mr. Gowdy. Thank you, ma'am.
    The Chair would now recognize Mr. King for his 5 minutes' 
worth of questions.
    Mr. King. Thank you, Mr. Chairman. I appreciate the 
testimony here of the witnesses. And I was just reflecting on 
restore the rule of law, Ms. Martinez, and I recall being a bit 
astonished listening to a hearing in the Ag Committee a few 
years ago when one of your colleagues from your organization 
testified that we had people that were getting overweight 
because they had food anxiety. And if we just give them more 
food stamps, they would not eat as much and tend to lose 
weight, and that would solve the obesity problem. But when I 
hear a discussion about restoring the rule of law by suspending 
the rule of law, it is awfully hard for me to wrap my mind 
around that rationale.
    So I would ask you instead a pointed question, and that is, 
do you have any estimation or any position in your organization 
on what you think the population of the United States should be 
in a generation or two or three? Do you have any position on 
that? And the second question is, do you have a position on how 
many legal immigrants should be brought into the United States 
each year?
    Ms. Martinez-De-Castro. Well, I am not a demographer, so I 
think I would be hard pressed to say what the population of our 
country should be. What I do----
    Mr. King. Is that something you have considered, though? Is 
that part of the discussion matter or is it just outside the 
zone of what you focus on as an organization?
    Ms. Martinez-De-Castro. In the context of immigration, 
obviously unless we are going to start regulating how many 
children Americans can have, the issue of how large or country 
should be, I think it is a whole other discussion.
    Mr. King. We are not going to down there. Okay. I do not 
think we are going to get that answer. And you do not have a 
position on where about 1.2 million immigrants are brought into 
the United States. Do you believe that number should increase 
or decrease?
    Ms. Martinez-De-Castro. So on the issue of immigration 
specifically, there are about, as you said, a million 
immigrants that are coming into our country both from the 
employment system and the family system. That is 0.3 percent of 
the current American population.
    So I think that we have the ability to actually broaden 
those lanes a little bit in a way that responds to the needs of 
the economy and the needs of our families.
    Mr. King. So you would see the number perhaps going up.
    Ms. Martinez-De-Castro. I am sorry?
    Mr. King. You see the number perhaps going up at greater 
than 1.2 million, but marginally. Do I hear that answer right?
    Ms. Martinez-De-Castro. I think that it should go up.
    Mr. King. Okay, I hear that. Now, are you familiar with 
Milton Friedman's argument that, and he used a shorter phrase 
of this, and you have not used this, but an open borders 
policy. We understand what that vernacular means in our society 
today. But Milton Friedman's statement that an open borders 
policy is not compatible with the welfare state. Are you 
familiar with that argument?
    And you have made the argument that the demands of labor 
should direct, at least to a significant degree, the flow of 
traffic across our borders into the United States. And you have 
made a cast that there are 4.3 million people that are waiting 
in line outside the United States. I think that is important.
    But do you agree with Milton Friedman that a welfare state 
and an open borders policy are incompatible?
    Ms. Martinez-De-Castro. I am not familiar with the full 
argument. What I would say is that our organization does not 
support open borders, nor do we think that Congress will ever 
get to support something like that. So in a way, I do not think 
that it is necessary to go down that road because that is not 
what we are talking about here. We are talking about----
    Mr. King. But it is. We do have a welfare state here, and 
it looks like our President is seeking to guarantee a middle 
class standard of living for anyone who might be inside the 
United States of America. And we have 80 different means test 
of welfare programs here in the United States.
    I do not know how you better define a welfare state than 
that. I just did not think it was arguable that this is a 
welfare state, but do you understand that it is incompatible to 
have an open borders policy and a welfare state at the same 
time?
    Ms. Martinez-De-Castro. We do not have an open borders 
policy, and my argument does not support one.
    Mr. King. Thank you. And I would ask then, Mr. Emery, do 
you have a position on these questions that I have asked, 
primarily whether the number of illegal immigrants should go up 
or down?
    Mr. Emery. No, sir. We do not have a position on how 
Congress should prioritize the numbers or how big they should 
be. But we think that our laws should respect our values. And 
we ask the question does anybody here think that our current 
laws do that now? So that is why we are advocating that the 
legal permanent residents be uncapped, and also that in the 
context of comprehensive reform, that there is due process 
waiver reform for U.S. citizens so that U.S. citizens are 
treated at least as well as anybody else.
    Mr. King. Can you explain to me Ms. Martinez's position 
that we can restore the rule of law by exempting people from 
it?
    Mr. Emery. I am sorry. No, I do not know that I can speak 
for her.
    Mr. King. It is not really a rhetorical question. It is 
something that this Congress needs to understand. There seems 
to be people in this Congress that can take the position that 
they respect, and defend, and protect the rule of law. And one 
of the ways we are going to do that is to suspend the rule of 
law for a certain class of people.
    I heard testimony here that once we restore the rule of 
law. We have the rule of law. It has been eroded by a lack of 
enforcement.
    But let me make another point that I would ask you to 
comment on, and that is that each of the times that I hear from 
witnesses on this subject matter, there is an advocacy for 
expanding one or more of the visa categories. And each time 
that advocacy takes place, there seems to be a disregard for 
the overall number of Americans that might come into the United 
States, what is that proper number, the 4.3 million or more, 
and I actually think it is more, that are waiting in line 
outside the United States. That is the back of the line.
    How many people would come here if we had a policy that 
could process them more quickly than Mr.--I did not follow your 
last name. I do not have my glasses on, but the gentleman said.
    So my question back to you then is, do you have a position 
on that total number of legal immigrants or do you at least 
understand that the advocacy we are hearing here is a peace of 
the jigsaw puzzle that only views opening up certain visa 
categories without regard to the overall number.
    Mr. Gowdy. You can answer the question.
    Mr. Emery. As I said, we do not have a specific position on 
that, but for us it is really about values. And we do not see 
that the moral argument for Mat to have his wife here is less 
for a resident than for a citizen. Again, it is up to Congress 
to set these priorities and to deal with them. Our concern is 
really this most basic fundamental value of husbands and wives 
and moms and dads being with their kids.
    Mr. King. Thank you, Mr. Chairman. I yield back.
    Mr. Gowdy. Thank you to the gentleman from Iowa.
    The Chair would now recognize the gentlelady from 
California, the Ranking Member, Ms. Lofgren.
    Ms. Lofgren. Well, thank you very much, Mr. Chairman.
    I am wondering, Mr. Papademetriou, sometimes people talk 
about chain migration, and there may be a myth out there that 
someone here can petition for their grandparents, and their 
aunts, and their uncles, and their cousins. Can you tell us who 
can petition for a relative?
    Mr. Papademetriou. Yes, a U.S. citizen.
    Ms. Lofgren. And who they can petition for?
    Mr. Papademetriou. Right. A U.S. citizen can petition for 
their immediate relatives defined as minor children under 21, 
spouses, and parents. And this is numerically unlimited. And 
then they can petition for their unmarried adult children. This 
is numerically limited. There are only about 23,000 or so visas 
that we dedicate to that. They can petition for their married 
adult children. That is the 3rd preference, and that is, again, 
around 23,000 or so visas. And they can petition for their 
siblings. That is the 4th preference, and that is about 6,500, 
6,600 visas.
    The reason I keep saying ``about'' is because as you all 
know, you know, if one category does not use the few numbers, 
they move them. They move this way and they also move the other 
way.
    And, of course, today's topic, which is the 2nd preference, 
and this is the spouses and unmarried minor children, category 
2A, the 2nd preference. And spouses--I am sorry--and unmarried 
adult children, which is 2B. That is it. Everybody is 
somebody's uncle, so, you know----
    Ms. Lofgren. But no cousins, no grandparents.
    Mr. Papademetriou. No cousins----
    Ms. Lofgren [continuing]. No aunts, and no uncles.
    Mr. Papademetriou [continuing]. Or things like that.
    Ms. Lofgren. Thank you for clarifying that. You know, 
Congress makes the laws. We made some mistakes in '96 when we 
amended the act, in my judgment. And now we have a chance to 
remedy some of the mistakes that we have learned about since 
that time.
    One of the things that I think is important is that if we 
have a system, that it be honest, and that it work. And looking 
at the question of 4th preference, I recently asked about the 
backlog in 4th preference and was told that if you petitioned 
for your brother or sister who lived in Mexico, that it would 
be 150 years until a visa number became available. Now, that 
strikes me as kind of a fraud to tell people, you know, when 
you are 150 years, because I do not think any of us are going 
to get there, that there is a 60-year wait when it comes to 
someone born in the Philippines.
    I mean, is that a viable situation to have 150-year wait?
    Mr. Papademetriou. I think waits for more than 10 years, 
and if we can actually wait that long, do not make any 
particular sense because they basically violate, you know, a 
number of principles. And I do not know, you know. The reason 
that you are using this very high number is because of the per 
country limits, et cetera, et cetera.
    But if you put those things aside, the Filipino would have 
to wait about 25 years on average again, but there will still 
be those extremes. Same thing with the Mexican.
    So fundamentally, if somebody has to wait for these kinds 
of years, it makes no sense for us to have anything like that, 
you know, in legislation.
    Ms. Lofgren. Right. It just does not work, yeah.
    Mr. Papademetriou. So, you know, you are going to have to 
come up with something else, you know, either by, you know, 
fundamentally, you know, reducing the number of years or, 
again, these laws. You are lawmakers. You can make them and 
unmake them, you know.
    Ms. Lofgren. Right.
    Mr. Papademetriou. And at the end of the day, you know, 
these are going to be things on which you can agree. And 
ultimately, laws are not made in a vacuum. They are going to be 
made, you know, with the full understanding of what really is 
the best toward the society.
    Ms. Lofgren. Thank you. You know, a lot of times, I come 
from Silicon Valley. And people advocate for high-skilled 
immigration, people with their Ph.Ds. And I agree with that. I 
mean, the geniuses that come in and are graduating from 
Stamford every year in the sciences is just awesome. But I 
think it is easy to assume that some of our most famous high-
skilled immigrants, actually they came as children. I mean, you 
think about Sergei Brin, the co-founder of Google, he came to 
the United States with his parents when he was 6, and I met his 
mother, who is a lovely woman. They still live in the Bay area. 
Or Pierre Omadar, who is--I can never pronounce his name, but 
he came as a child. He was born in Paris. Or Jerry Yang, who 
founded Yahoo!, who actually grew up in East San Jose. He came 
when he was 10 years old.
    So when we think about the balance that is necessary, I do 
not think we need to fight each other because, you know, 
innovators come in various routes. They come because they went 
to a school at a great university, but they also came with 
their parents. And sometimes I say this, but I thank Sergei and 
his family, that Google is in Mountain View instead of Moscow, 
where he was born.
    So I am hopeful, Mr. Chairman, that we will make progress. 
These are difficult and important questions that we face. I am 
mindful of Mr. King's question. You know, two and a half 
million die in America every year, too, so we need to take a 
look at the entire demographic picture and the fact that we are 
not in the demographic dead spiral that Russia is in, that 
Japan is in, and the like.
    I yield back.
    Mr. Gowdy. I thank the gentlelady.
    The Chair would now recognize the gentleman from Idaho, Mr. 
Labrador.
    Mr. Labrador. Thank you, Mr. Chairman.
    Mr. Emery, one suggested legislative fix for the F2A 
preference category is to allow spouses and minor children of 
legal permanent residents to be treated as immediate relatives. 
Do you think that might encourage fraud?
    Mr. Emery. Well, I guess I would have to think about how 
does it work for the skilled workers now. I mean, I am not 
expert on that area, but do we find a whole lot of fraud with 
people who come in H1B visas? If we do, I have not heard about 
it.
    Mr. Labrador. But we find a lot of fraud in people coming 
here even on immediately relative visas. So the question is, 
because I do not disagree with your policy prescription. I 
actually think it is a good prescription. But we have to think 
prospectively about future flow of immigration, what it is 
going to encourage. When we change our law, you do it so you 
can encourage certain behavior and also discourage certain 
behavior.
    So if we know that in the immediate relative category there 
is a substantial amount of fraud, is that something that we 
should be thinking about when we are changing these categories?
    Mr. Emery. Well, I can only speak from experience. And, you 
know, my experience is that people are married and fight 
against incredible odds to be together. And it is a real 
testament to marriage. That is the personal experience I have.
    Mr. Labrador. That is great. Thank you. Thank you.
    Ms. Martinez, same question to you, because, again, I do 
not disagree with the policy prescription. I actually think it 
is a good idea to change the category. But as you are thinking 
about changing the law, you have to think about all the 
consequences of that change. Do you think it would encourage 
fraud, and if it does or does not encourage fraud, what do we 
do to make sure that we do not have more fraud in the 
immigration system?
    Ms. Martinez-De-Castro. I am not sure that the change in 
the law itself would encourage more fraud. I think as with any 
program, and as you know as lawmakers, there are very 
entrepreneurial people out there that may try to find a way 
around things. But, you know, we can pose the same question as 
a program like Medicare. We know there is fraud in the Medicare 
program. That does not mean we do away with the program. We try 
to figure out what mechanisms we can put in place to make sure 
that we prevent those very entrepreneurial creating people from 
gaming the system while making sure that the incentives are 
maximized. And I agree completely with your framing about law 
creates incentives to do one thing or another.
    And so I believe that really the case in front of you all 
here, we are not really talking about more immigration or less 
immigration. We are talking about putting a system in place 
that is going to regulate the immigration that is happening and 
that is in our best interests to make sure that it is going 
through legal channels, where people are being vetted, where 
people are being counted, where we know where they are going.
    And so an expansion in the program or reclassifying some of 
these categories would actually create the incentives for 
people to go through the system, which is what we want. And 
then we can concentrate on those very entrepreneurial people 
who want to try to game it.
    Mr. Labrador. So if we are going to increase the number of 
immigrants, which we would if we changed the F2A category, and 
again, I agree with the policy, are there any categories in a 
family-based system that maybe we should be thinking about not 
having anymore?
    Ms. Martinez-De-Castro. That is a very difficult question, 
and the reason I say that is because if you are a person whose 
only family in the world is a brother or a sister, that is your 
immediate family.
    Mr. Labrador. But if you are a person whose only family is 
a brother or sister, why did you leave your brother or your 
sister?
    Ms. Martinez-De-Castro. Well, it happens, right? It 
happens. I can speak to that experience.
    Mr. Labrador. There are a lot of examples, but I think if 
we are going to be increasing the number of visas, which I 
think we should for some categories, I think at some point we 
also have to make the policy decision of what is in the 
national interests for the United States, because our 
immigration policy is not for the interests of the individual.
    Ms. Martinez-De-Castro. That is right.
    Mr. Labrador. It is the national interests of the United 
States. Do you agree with that?
    Ms. Martinez-De-Castro. I agree that it should be in the 
national interest, and I think the national interest here is 
that each of the different programs that we have, and I agree 
that we need to figure out how to simplify because things are 
extremely complicated.
    Mr. Labrador. Yes.
    Ms. Martinez-De-Castro. But each of the programs we have 
has the goal of encouraging people or giving people hope to 
stand in a line that might have a chance to go through. And so 
to the extent that we make arbitrary decisions that take those 
things away, we are also creating incentives for people to go 
around them.
    Mr. Labrador. I do not think it is an arbitrary decision to 
determine what is in the national interest, which family 
members are in the national interest. We do not allow uncles. 
We do not allow aunts. So at some point we have to make a 
policy decision here in Congress.
    Anyway, thank you, Mr. Chairman.
    Mr. Gowdy. I thank the gentleman from Idaho.
    The Chair would now recognize the gentlelady from Texas, 
Ms. Jackson Lee.
    Ms. Jackson Lee. Let me thank the Chairman and the Ranking 
Member, but also the courtesy of my friend, Mr. Gutierrez, and 
to all of the colleagues that are here.
    Mr. Chairman, let me acknowledge the importance of these 
hearings, and thank you and your staff, along with Ms. Lofgren, 
for ensuring that we have a very, very solid record on some of 
the important work that this Congress has to do. And I want to 
thank the witnesses.
    And as I was being briefed by staff, I want to make sure 
that it is very clear in this immigration story, this 
immigration journey, that they view America as the land of 
opportunity. And I believe that when we speak of our country as 
we live in it, none of us will ever describe our Nation as a 
welfare state. We describe it as a place where can finish 
education to the public system, that we can get a higher 
education, the best education for reasonable resources 
expended. We view it as a place that you can move from poverty 
to opportunity. And that story is larger than us. It goes all 
around the world.
    That is why people may leave a beloved family member 
behind. I hear the stories every day. It is not a celebratory 
case when someone has an opportunity to come to the United 
States, but not their family. They sacrifice because of what 
they believe the values of this Nation are all about.
    Mr. Papademetriou, you had a sentence that I think is 
really the statement. How a country approaches immigration and 
how it treats its immigrants is a powerful statement to the 
world abut its values and the principles upon which it stands.
    I have a short period of time. I just want to ask you. Is 
America overwhelmed with immigrants?
    Mr. Papademetriou. No, it is not overwhelmed by immigrants. 
And we take far fewer immigrants on per capita basis that many 
other countries do. For instance, Canada takes 3 times as many 
immigrants per Canadian more so than we do. Australia does 
likewise.
    So the issue is not more or fewer. The issue is a system 
that makes sense, as Ms. Lofgren said, that has clear rules, 
that those rules can be understood by everyone, and that it 
does not ask people to do things that will be completely 
unnatural in the regular course of their lives. And separating 
spouses from minor children is unnatural.
    Ms. Jackson Lee. Let me follow that up with Ms. Martinez, 
who said the same thing. If we have a system that establishes 
the rules, do you believe both advocates and those who seek in 
this country will follow the rules in most part?
    Ms. Martinez-De-Castro. I think if the rules are clear and 
fair, people have an incentive to do that. Even if you think 
about the current population in our country who is 
undocumented, when you think about people who were willing to 
risk their lives, literally and not figuratively, to come here 
for either the opportunity of a job or to reunite with a loved 
one. And many times, having to spend not only their life 
savings, but the life savings of their home network or families 
to be able to pay a smuggler.
    If there was a real line that people believed in, whether 
it was employment based or family based, to be able to wait and 
come here, I think that when you put in the balance the risks 
to your life and the life savings of a community, then it 
creates an incentive to come in legally. But that is why it is 
so important that our legal immigration system work properly.
    Ms. Jackson Lee. And it should respond to this crisis of 
separating our families.
    Let me ask both Mr. Emery and Paguth. I am trying to see. 
In a hearing that I had in my district, I was told the story of 
a father who was placed on a plan and literally told to sell--
let me temper that down--to give away his American-born 
children. And you are speaking of a legal status of a legal 
permanent resident and the numbers being such that you cannot 
have your wife. And so to fix that, I think our witnesses are 
talking, is the adding of those numbers so that you have a 
fair, legal process.
    Mr. Emery, can both of you speak to that very quickly?
    Mr. Emery. Yes.
    Ms. Jackson Lee. The tearing apart of families?
    Mr. Emery. Yes, we see it all the time. And again, it is 
not just the permanent residents. It is U.S. citizens, too. And 
that is why we are advocating for exactly what you are saying, 
for permanent residents to be able to bring their spouses here 
without any delay, and also for U.S. citizens to have process 
waiver reform so that they are treated at least as well as 
other groups in immigration reform.
    Ms. Jackson Lee. Can the gentleman answer quickly, please?
    Mr. Arivalan. I agree with Mr. Emery. I am here because I 
did not want to my marriage to fail. Two years plus visa 
processing time of 6 months to a year is a long time for any 
marriage. It is a huge hardship on any marriage. And it would 
have a negative effect on any relationship for that matter.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. This 
gentleman I think is a legal permanent resident because he 
wants to be a citizen. A work permit would allow him to have 
his wife. This is a process that we need to fix.
    And I thank the Chairman and Ranking Member very much. I 
yield back.
    Mr. Gowdy. I am going to briefly yield to the gentlelady 
from California before we go to the gentleman from Nevada.
    Ms. Lofgren. I would just like to ask unanimous consent to 
place into the record 17 statements from various religious and 
civil rights groups.
    Mr. Gowdy. Without objection.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
    Mr. Gowdy. The Chair will now recognize the gentleman from 
Nevada, Mr. Amodei.
    Mr. Amodei. I arrived late, and I missed some of your 
testimony, so I will be brief with that. I do think I missed 
anybody's testimony that the ways things are now are okay, 
right? Is there anybody here on this panel that thinks it is 
okay the way it is now?
    Okay. The record should reflect a negative response.
    You have talked about it is unnatural, Mr. Papademetriou, 
to separate families, kids, and parents, and stuff like that. 
When you talk about if this is going to be the precipitating 
Congress for doing something to change what is unacceptable 
now, what role do you think national interests ought to be in 
setting that policy when you compare it with, you know, 
separating people? What role does the national interest play in 
discussing that policy?
    Mr. Papademetriou. It is a critical role that the national 
interests will play, but I do not see the national interest 
being antithetical to keeping nuclear families together.
    Mr. Amodei. Okay. Well, I do not think I intimated that you 
had to pick one or the other.
    Mr. Papademetriou. Okay.
    Mr. Amodei. But you do acknowledge that nation interests 
should be part of that discussion.
    Mr. Papademetriou. Absolutely, sir.
    Mr. Amodei. Ms. Martinez, you indicated you thought that 
things should be clear and fair, which is a pretty good place 
to start. Has your organization proposed any legislation when 
we talk about this issue to say if you are admitted under the 
circumstances that Mr.--listen, people mangle my last name all 
the time, so you I am not going to----
    Mr. Arivalan. You can just call me Mat.
    Mr. Amodei. Okay, good. Big buy, how about that? 
[Laughter.]
    Have you got any proposals for how that works if you are 
being admitted as a married person or separated from your 
children, what the process should be before you are allowed to 
come into the country in terms of making that something that is 
more transparent to folks as opposed to what sounds like a 
surprise for a lot of people?
    Ms. Martinez-De-Castro. I think that we are dealing with a 
couple of different problems. I mentioned 3 of them, and the 
situations for each is different. In some of these categories, 
the process itself may not be necessarily the most difficult 
part, but the reality that the lane in which people are coming 
into is too narrow, and, therefore, the wait starts getting 
really long. So I think that is one of the proposals is took 
particularly at the immediate relatives, the spouses and small 
children, of legal permanent residents and figure out how to 
expedite or how to minimize those waits.
    I think when we are talking about, for example, how the 
laws apply or exclude LGBT families, are talking about a 
different set of issues, and those are families that are 
summarily excluded from being able to use these mechanisms 
right now.
    And then when we are talking about the separation of 
nuclear families as a result of the 3- and 10-year bars that 
Ms. Lofgren mentioned, or as a result of deportation policies, 
I think it is another set of issues, but that hopefully within 
the context of immigration reform, as we create a rigorous path 
to earn legality, we also start addressing some of those.
    Mr. Amodei. I will just finish with this because I know we 
are getting short on time. I do not think I have heard anybody 
talk about things are okay in this meeting or otherwise. 
Nobody, regardless of what their politics are, say things are 
okay. But I would remind you that as you go to what would be an 
improvement over the system, that solutions are something in 
the context of we are talking about families today.
    But you, and thank you for your comments about open borders 
and not open borders, because it is kind of like having a speed 
limit sign out there saying it is 55, but we are telling you 
right now nobody is enforcing the traffic laws. It does not 
matter what your traffic laws are if they are not enforceable, 
if they are not transparent, they are not predictable, clear 
and fair, I think is the phrase you used.
    So even though we are concentrating on nuclear family 
issues today, it is like specifics, I think, in terms of 
allowing folks from wherever they happen to be from in getting 
down to something that can actually move will be helpful. And I 
do not mean to be trite, but it is like I do not think anybody 
disagrees that there is a problem. It is like what is the idea 
for the solution in terms of how do you change this with 
respect to that, but in the global sense?
    So thank you, and thank you, Mr. Chairman.
    Mr. Gowdy. I thank the gentleman.
    I want to now recognize the gentleman from Illinois and 
then try to also get in the gentleman from Virginia. Mr. 
Gutierrez?
    Mr. Gutierrez. Well, thank you. I want to thank all of the 
panelists, and I want to say to Mr. Emery, thank you for the 
invitation. It was wonderful to be there with Mr. Labrador and 
others are you made your presentation.
    I want to say, Mr. Chairman, thank you. I am sure the 
gentlelady, the Ranking Member, could probably persuasively 
argue otherwise, but I think this is a pretty hard panel to 
beat. I fills our record with the necessity of American 
citizens and their need to keep their families together. And I 
got to tell you, thank you for putting together a panel that 
really, I think, helps all of the Members begin to understand 
the complexity of our broken immigration system, and how it 
really impacts American citizens, and families, and marriage. I 
for one am a strong supporter in the institution of marriage, 
and I think that here we have given testimony about how our 
immigration system undermines marriage.
    I want to also take an opportunity to say to Chairman 
Goodlatte, I want to thank you. I read your Christian Science 
Monitor interview. I want to thank you. I think that your 
expressions are ones that fill me with hope, and I think should 
fill all of these panelists with hope that we can find a 
bipartisan solution that keeps our borders secure and does not 
open our borders, but has a compassionate understanding that 
there are families being disrupted.
    I would like to ask Ms. Martinez, how many people have been 
deported during the last 4 years?
    Ms. Martinez-De-Castro. Just in the last 4 years----
    Mr. Gutierrez. Sure.
    Ms. Martinez-De-Castro [continuing]. It is 1.6 million.
    Mr. Gutierrez. 1.6 million. Were there 1.6 million people 
deported in the previous 4 years, or were there less or more, 
if you know?
    Ms. Martinez-De-Castro. No. I mean, one thing that we know, 
and it is has been documented very well by the Department of 
Homeland Security, in studies, and by a number of other 
entities, is that this is the biggest fight that we have seen 
in deportations of any previous Administration.
    And so, the reality is that we need enforcement of our 
immigration laws. There is no question about it. But I think 
that one of the things that we need to do to be able to restore 
the rule of law is understand that we cannot restore the law 
any more by simply continuing to do enforcement, enforcement, 
enforcement, without in a pragmatic way that addresses reality, 
dealing with the population who is here, two-thirds of whom 
have been here for 10 years and are part of U.S. citizen 
families.
    And so, therefore, to restore the rule of law, we need that 
two-pronged approach. And we have done a great deal of 
investment, boots on the ground, and other policies on 
enforcement. The piece that remains undone is what we do about 
the population that is here?
    Mr. Gutierrez. To follow up with you, I recently read that 
we spend $18 billion a year on enforcement on homeland 
security. Could you share with us what that means in respect 
to, like, the FBI and other enforcement agencies at the Federal 
level?
    Ms. Martinez-De-Castro. Actually if you give me the 
opportunity, it was actually the Migration Policy Center who 
did a whole report on that, and Demetrios probably is probably 
a bigger expert on those figures than I am.
    Mr. Gutierrez. Mr. Demetrios, please.
    Mr. Papademetriou. Fourteen billion dollars for all of the 
other Federal enforcement agencies.
    Mr. Gutierrez. We spent $18 billion on what exactly?
    Mr. Papademetriou. You know, that is the budget for 
interior enforcement for border enforcement.
    Mr. Gutierrez. And we spend $14 billion on what in 
comparison to that----
    Mr. Papademetriou. FBI, DEA.
    Mr. Gutierrez. So we spend more money on enforcement on 
immigration than we do on the Secret Service to protect the 
President, to protect our currency, the FBI, the marshals.
    Mr. Papademetriou. All of that.
    Mr. Gutierrez. And yet we see it is had a devastating 
effect on our families.
    I just wanted to try to have a little balance in terms of 
there is enforcement. It is expanding. It is expanding even 
though we have huge communities of people demanding a change. 
It has continued to expand, and the number of dollars that we 
use and the devastating effect. And I think Mr. Emery, and I 
think the witnesses we have, we see the devastating effect 
because I know.
    So I joined the gentlelady, Jackson Lee, this past weekend 
in Houston. I now join Congressman Vargas in San Diego. And I 
just want to assure my colleagues that although much has been 
said, we are for secure borders. We are for the rule of law. We 
are also for a compassionate, understanding immigration system 
that keeps our families together. We have record deportation 
and we have record strife on our poor immigrant families across 
this Nation.
    Thank you so much, Mr. Chairman.
    Mr. Gowdy. I thank the gentleman from Illinois.
    We have votes pending, so in lieu of asking questions, I 
will just make a few observations.
    I first want to thank all of the witnesses for their 
compelling testimonies that impact the basic fundamentals of 
life when you are talking about family and spouses.
    I also want to confess a certain bias. As a former 
prosecutor, it was not so much respect for the rule of law as 
much as it was adherence to the rule of law. You could respect 
something and then still not adhere to it. And I cannot tell 
you the number of times I had to prosecute laws that I did not 
agree with. I would not have written the law that way. I would 
have written it differently. But yet I took an oath to enforce 
law, not just respect it, but enforce it.
    And if we are going to have a remedy that satisfies all of 
us, we are going to have to convince our fellow citizens that 
this is the last time as a Nation we have a conversation. In 
other words, we can pass something, but if everybody still 
says, well, I do not agree with this part of it; therefore, I 
may respect it, but I am not going to adhere to it, we are not 
going to get it done.
    So I appreciate the commentary on respect for the rule of 
law. That respect has to manifest itself in an adherence. I 
would imagine that is one of the reasons that we are a 
destination point for people who want to improve their lives is 
because we are a Nation of laws. It is the greatest equalizer 
in the world, and as sure as you may want to benefit from the 
non-application of the law today, you will be clamoring for the 
full application of another law tomorrow.
    So with that, I want to thank all of our panelists. And let 
me now go to--Mr. Goodlatte, I will yield to you a minute of my 
time if you want it. If not, I will go to the gentleman from 
Florida.
    Mr. Goodlatte. Well, I am just going to thank you for 
holding this hearing and second your comments. I appreciate the 
remarks of the gentleman from Illinois.
    This panel is a very moving panel, and I appreciate their 
testimony. I would just say that as we address this issue, we 
need to keep people who are trying to go through the process 
legally at the forefront of our minds. That does not mean we 
can ignore the problem with people who are not lawfully here. 
But we need to make sure that as we do this work, we are 
keeping in mind the highest priority, which is we are a Nation 
of immigrants, and we are going to make sure that we treat 
those immigrants like people we have always benefited from 
wanting to come to this country. And I agree with you, we are 
also a Nation of laws, and we have to find a way to bring those 
two things together to make this work.
    I will yield back.
    Mr. Gowdy. Thank you, Mr. Chairman.
    The Chair would now recognize the gentleman from Florida 
and thank him for his patience.
    Mr. Garcia. Thank you, Mr. Chairman. I do not have very 
much more to add. I think what I would like this Committee, 
because I agree with Mr. Goodlatte. But what I think is very 
important to remember is that in the end we are a country of 
immigrants that needs immigrants. And if these hearings were 
being held because we are trying to figure out ways to get 
people to migrate to America, we would be in far worse trouble 
than having hearings when we are trying to filter who we want 
to come in because so many want to come in.
    Thank you very much for being here. I enjoyed the testimony 
and appreciated your good work.
    Mr. Gowdy. I thank the gentleman from Florida.
    I would also ask unanimous consent to put the full 
statement of Chairman Goodlatte into the record.
    Without objection.
    [The prepared statement of Mr. Goodlatte follows:]

Prepared Statement of the Honorable Bob Goodlatte, a Representative in 
  Congress from the State of Virginia, and Chairman, Committee on the 
                               Judiciary

    Thank you, Chairman Gowdy.
    The objective of immigration law is to regulate who enters the 
country and to ensure that their entrance is in the interest of the 
United States. While much of the discussion about reforming immigration 
centers on what to do with the estimated eleven million unlawful 
immigrants in the United States, no less deserving of careful 
reflection are the nuclear family members of lawful permanent residents 
waiting in backlogs to enter the U.S.
    Today's hearing focuses on the nuclear family and how greencards 
are issued for the spouses and unmarried minor children of lawful 
permanent residents (LPRs).
    Current law allows the spouse and unmarried minor children of a 
U.S. citizen to immediately receive greencards--there is no cap on the 
number of greencards that can be issued to them each year.
    In addition, when a foreign national becomes a lawful permanent 
resident, their spouse and minor children at the time also get green 
cards. But if LPRs marry foreign nationals after they get their 
greencard, only about 88,000 greencards are available each year to 
their spouses and minor children. Therefore backlogs develop.
    At this time nearly 220,000 spouses and minor children are waiting 
for those greencards. And they must wait outside the U.S.
    The State Department is currently issuing greencards for spouses 
and children of LPRs whose applications were received in or before 
November 2010. So there is a nearly two and a half year wait for those 
spouses and children.
    In the past, the wait time has been as high as six years. A decade 
ago Congress adjusted our immigration policy to address concerns about 
families being apart for so many years.
    The ``Legal Immigration Family Equity (LIFE) Act of 2000,'' created 
a temporary visa to allow the spouse or minor child of a lawful 
permanent resident to wait inside the United States if they had been 
waiting at least three years outside the U.S. The V visa, as the LIFE 
Act visa is known, has since expired.
    Last year the House passed a bill that would have reauthorized the 
V visa and reduced wait times even more. The ``STEM Jobs Act of 2012,'' 
contained a provision lowering the wait requirement for a V visa from 
three years to one year. While that particular provision had some 
problems--including the fact that it cost approximately $3 billion over 
10 years in the form of federal government benefits--the underlying 
principle that nuclear families should be together is an important one 
that Congress should promote.
    So today we examine the issue and possible changes to the law that 
could be made to help reduce the greencard wait times of spouses and 
children of LPRs, while at the same time discouraging marriage fraud. I 
look forward to hearing what the witnesses have to say.
    Thank you Mr. Chairman and I yield back the balance of my time.
                               __________

    Mr. Gowdy. Again, on behalf of all of us, thank you for 
your indulgence with our taking a break for our colleagues to 
meet with the President. And thank you for your indulgence with 
our having to go vote. Thank you for your collegiality with one 
another and also with the Subcommittee.
    And with that, we are adjourned.
    [Whereupon, at 5 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

  Prepared Statement of the Honorable Trey Gowdy, a Representative in 
 Congress from the State of South Carolina, and Chairman, Subcommittee 
                   on Immigration and Border Security

    Family is fundamental unit of society. Family is where we go to 
multiply joy, mitigate grief and share all the emotions in between. My 
mother in law fell and broke her hip Monday and even though there are 
wonderful nurses at the hospital it will be family that sits with her 
round the clock. And family will help get our daughter to school on 
time, and family will cut the grass and make the meals. We all claim to 
support pro-family agendas. And we analyze tax policy and healthcare 
policy and virtually all other forms of policy against a backdrop of 
whether it incents or disincentives family. So it is appropriate that 
we also analyze our immigration policy to see whether it is friendly to 
this thing we call family, the fundamental unit of our culture and 
society. We have heard the statistics about U.S. Green Card backlogs 
and the time it takes for individuals trying to come to the U.S. 
legally. In fact, under the current process, if you have applied for a 
Green Card on the basis of being a brother or sister of an adult U.S. 
citizen, the wait could be nearly 25 years.
    Members of the U.S. Commission on Immigration reform did not 
believe there should be a wait for spouses and unmarried minor 
children, but did not necessarily share the same view about other 
family members. In its 1997 report, the Commission stated, ``the 
national interest in the entry of nuclear family members outweighs that 
of more extended family members.''
    The Commission also addressed the wait time for the spouse and 
unmarried minor children of lawful permanent residents (LPRs), stating 
that ``no spouse or minor child should have to wait more than one year 
to be reunited with their U.S. petitioner.''
    But the current greencard wait time for the spouse or unmarried 
minor child of an LPR is actually around two and a half years. And 
there are around 220,000 people waiting.
    Why is there a wait? When Congress created the current greencard 
system in the ``Immigration Act of 1965,'' limits were placed on the 
number of greencards available to certain classes of people each year.
    For instance, each year's family-sponsored greencard limit for 
spouses and children of lawful permanent residents in the U.S. is 
114,200 plus any unused greencards from the category allotted for 
unmarried adult children of U.S. citizens. This preference category, 
known as family-based second preference, is further divided into 2A 
Preference--for spouses and unmarried children of LPRs--and 2B 
Preference--for unmarried adult children of LPRs.
    So if the number of greencards available in any given year for the 
family-based 2A preference category is less than the number of people 
who apply for a greencard in that category, a backlog is created.
    At this point, the top five countries with the highest family-based 
2A preference waiting list totals are Mexico (40%), Dominican Republic 
(11.4%), Cuba (6.3%), Haiti (5.3%) and the Philippines (4.3%). All 
other countries make up the remaining 32%.
    Another reason for the wait is the conscious Congressional decision 
not to allow immediate greencards for the family-based 2A preference 
category in order to help prevent marriage fraud.
    Since these marriages occur after the LPR has become an LPR, there 
is a very real threat that if greencards were immediately available, 
marriage fraud would be prevalent.
    Ideas differ as to how to reduce the greencard wait times for the 
family-based 2A preference. And I am sure we will hear some of those 
differing views from our witnesses today.
    Some individuals believe that spouses and unmarried children of 
LPRs should be considered the same as immediate relatives of U.S. 
citizens and thus receive a greencard immediately. Some believe that 
the current situation is fine--that a few years wait time is a fair 
price for the benefit of a U.S. greencard which then leads to 
citizenship. And still others believe that the correct answer is 
somewhere in between.
    So I look forward to the witness testimony today, to learn more 
about the issue and the possible solutions.
    I yield back the balance of my time.




                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
